<html>
<title> - H.R. 1553, PRESIDENT JOHN F. KENNEDY ASSASSINATION RECORDS REVIEW BOARD REAUTHORIZATION ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
H.R. 1553, PRESIDENT JOHN F. KENNEDY ASSASSINATION RECORDS REVIEW BOARD 
                          REAUTHORIZATION ACT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1553

TO AMEND THE PRESIDENT JOHN F. KENNEDY ASSASSINATION RECORDS COLLECTION 
 ACT OF 1992 TO EXTEND THE AUTHORIZATION OF THE ASSASSINATION RECORDS 
                 REVIEW BOARD UNTIL SEPTEMBER 30, 1998

                               __________

                              JUNE 4, 1997

                               __________

                           Serial No. 105-85

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                   U.S. GOVERNMENT PRINTING OFFICE
90-483                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
               Jeff Schaffner, Professional Staff Member
                          Ianthe Saylor, Clerk
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 4, 1997.....................................     1
    Text of H.R. 1553............................................     6
Statement of:
    Stokes, Hon. Louis, a Representative in Congress from the 
      State of Ohio..............................................     7
    Tunheim, John, chair, Assassination Records Review Board; 
      Steven Tilley, Chief, John F. Kennedy Assassination Records 
      Collection, National Archives; Max Holland, author, 
      contributing editor, Wilson Quarterly; and Bruce Hitchcock, 
      teacher, Noblesville High School, Indiana..................    14
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Hastert, Hon. J. Dennis, a Representative in Congress from 
      the State of Illinois, prepared statement of...............     3
    Hitchcock, Bruce, teacher, Noblesville High School, Indiana, 
      prepared statement of......................................    50
    Holland, Max, author, contributing editor, Wilson Quarterly, 
      prepared statement of......................................    39
    Stokes, Hon. Louis, a Representative in Congress from the 
      State of Ohio, prepared statement of.......................     9
    Tilley, Steven, Chief, John F. Kennedy Assassination Records 
      Collection, National Archives, prepared statement of.......    30
    Tunheim, John, chair, Assassination Records Review Board, 
      prepared statement of......................................    17


H.R. 1553, PRESIDENT JOHN F. KENNEDY ASSASSINATION RECORDS REVIEW BOARD 
                          REAUTHORIZATION ACT

                              ----------                              


                        WEDNESDAY, JUNE 4, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 12:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Souder, LaTourette, 
Barrett, Cummings, and Turner.
    Staff present: Robert Charles, staff director and chief 
counsel; Jeff Schaffner, professional staff member; Ianthe 
Saylor, clerk; David McMillen and Mark Stephenson, minority 
professional staff members; and Ellen Rayner, minority chief 
clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order. 
This hearing will focus on a very important piece of 
legislation: H.R. 1553, the John F. Kennedy Assassination 
Records Review Board Reauthorization Act. This bill was 
introduced by Chairman Dan Burton on May 8, 1997. Included in 
the original cosponsors: Ranking Minority Member Henry Waxman 
and Congressman Louis Stokes, our first witness for today, also 
who chaired the House Select Committee on Assassinations.
    In 1992, 30 years after the assassination, nearly 1 million 
pages of records compiled by official investigations still have 
not been made public. Congress decided to set up a process for 
reviewing and releasing to the public the records surrounding 
the Kennedy assassination. The result was that on October 26, 
1992 President Bush signed into Public Law 102-526, the 
President John F. Kennedy Assassination Records Collection Act 
of 1992.
    The original act provided a 3-year timetable for a Review 
Board to compete its work. Unfortunately, extensive delays in 
the appointment of Board members delayed the Review Board's 
work from the very beginning. In 1994 the Congress extended the 
1992 law's termination date for 1 year, until September 30, 
1996. The Review Board subsequently exercised its authority 
under the statute to continue operating for 1 additional year.
    The review process has proved to be more complex and time-
consuming than anticipated. And although we believe that 
Congress should not indefinitely continue funding Federal 
entities that were intended to be temporary, Chairman Burton 
and this subcommittee support the request for a 1-year 
extension of the Board's reauthorization. I believe that by 
releasing these documents to the public we serve the important 
public right to know and advance the cause of total 
accountability of the people of this country.
    At this time I would like to recognize the gentleman from 
Wisconsin, Mr. Barrett.
    [The prepared statements of Hon. J. Dennis Hastert and Hon. 
Dan Burton, and the text of H.R. 1553 follow:]

[GRAPHIC] [TIFF OMITTED]


105th CONGRESS
1st Session
                               H. R. 1553

To amend the President John F. Kennedy Assassination Records Collection 
 Act of 1992 to extend the authorization of the Assassination Records 
                 Review Board until September 30, 1998.

                                 ______
                                 

                    IN THE HOUSE OF REPRESENTATIVES

                              May 8, 1997

   Mr. Burton  of Indiana (for himself, Mr. Waxman, and Mr. Stokes) 
 introduced the following bill; which was referred to the Committee on 
 Government Reform and Oversight, and in addition to the Committee on 
   the Judiciary, for a period to be subsequently determined by the 
  Speaker, in each case for consideration of such provisions as fall 
           within the jurisdiction of the committee concerned

                                 ______
                                 

                                 A BILL

To amend the President John F. Kennedy Assassination Records Collection 
 Act of 1992 to extend the authorization of the Assassination Records 
                 Review Board until September 30, 1998.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. EXTENSION OF AUTHORIZATION OF ASSASSINATION RECORDS REVIEW 
                    BOARD.

    The President John F. Kennedy Assassination Records Collection Act 
of 1992 (44 U.S.C. 2107 note) is amended--
            (1) in section 7(o)(1), by striking ``September 30, 1996'' 
        and all that follows through the end of the paragraph and 
        inserting ``September 30, 1998.''; and
            (2) in section 13(a), by striking ``such sums'' and all 
        that follows through ``expended'' and inserting ``to carry out 
        the provisions of this Act $1,600,000 for fiscal year 1998''.
                                ------                                


    Mr. Barrett. Thank you, Mr. Chairman. I'm honored to 
welcome my esteemed colleague, Representative Louis Stokes, to 
testify before this subcommittee. We're fortunate to be able to 
draw on your experience in this area. Over 30 years ago this 
country was shocked by the assassination of President Kennedy 
in a way that it had not been shocked since the bombing of 
Pearl Harbor or the bombing of Hiroshima.
    Yet today we are still prying papers out of the government 
about that assassination. The legislation that created the 
assassination Review Board broke new ground by establishing the 
principle that there should be a presumption of public access 
to government information. That legislation was necessary 
because administration after administration had failed to 
release documents. That should not be.
    The assassination Review Board released millions of pages 
that could have otherwise remained locked in government file 
drawers. We are here today to extend the authorization of this 
Board, because the process of making government information 
public has been more complex and time consuming than 
anticipated. I am not criticizing the work of the Board or the 
dedication of its members. I am, however, critical of the fact 
that we are still fighting with our government to allow public 
access to government documents.
    Congress has passed laws and resolutions reiterating the 
principles of public access that were laid down when this 
country was founded. Administration after administration has 
worked to thwart that access. I applaud President Clinton for 
his efforts to declassify documents, but we need to do much 
more.
    I hope that every employee at the Office of Management and 
Budget and every agency in the government will pay attention to 
what this Board has accomplished. It is a refusal to allow 
public access that breeds suspicion of the government. It is 
the thwarting of public access that causes the public to 
mistrust government officials. If we are to turn the tide of 
mistrust and suspicion it will be done by opening the doors of 
access. Today is one step in that process. But there is much 
more work to be done. Thank you.
    Mr. Hastert. Thank you very much. I now hand it over to any 
members wishing to make an opening statement. If not, our first 
witness this morning is fellow Congressman Louis Stokes, who 
served as the chairman of the House Select Committee on 
Assassinations from 1976 to 1979 and as a cosponsor of this 
support and bill. And Mr. Stokes, we want to say welcome and 
thank you for your fine work in this area. And please proceed 
with your opening statement.

 STATEMENT OF HON. LOUIS STOKES, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Stokes. Thank you very much, Mr. Chairman, Mr. Barrett, 
Mr. Turner, Mr. LaTourette. Mr. Chairman, I'd like to submit my 
written testimony for the record. And, if I may, I'd like to 
just summarize my testimony.
    Mr. Hastert. Without objection.
    Mr. Stokes. Thank you. It seems, Mr. Chairman, though it's 
not as long as it is--but it's been actually 20 years--it was 
1977 when I was appointed as chairman of the House Select 
Committee on Assassinations. We were authorized at that time 
and directed to complete an investigation surrounding the 
assassination and the death of President John F. Kennedy.
    We completed, as you've already stated, our investigation 
in 1979. And on March 28th of that year we filed our final 
report. In addition to it, 12 volumes of evidentiary material 
printed by the Government Printing Office was made available to 
the American public. In addition to this, we conducted 18 days 
of public hearings and an additional 2 days of public policy 
hearings.
    Now, prior to the committee running out of both time and 
money, we had released everything that we had the time and the 
resources to release. All of our other records were placed in 
the National Archives under House of Representatives Rule--
which existed at that time--Rule XXXVI, requiring such 
unpublished records routinely to be sealed for 30 to 50 years.
    The records of our committee relative to this investigation 
consisted of 935 boxes, which we turned over to the National 
Archives. Then, over the years, considerable public debate 
about these records has ensued, including accusations that 
these records, if released, would contain evidence of a 
government cover-up or complicity of government agencies in the 
assassination of President Kennedy.
    A great deal of this was fueled in 1992 by a movie entitled 
``JFK.'' That movie contained many distortions to the facts and 
circumstances surrounding the death of our President. As a 
result of that movie my office was deluged with thousands of 
letters and telegrams by Americans calling for the release of 
these sealed files. As a Member of Congress and a former 
chairman of that committee, I deemed it important not to have 
the good work of our committee impugned by such base 
accusations.
    Our committee had attempted to conduct its investigation 
into the assassination of the President and present the results 
of that investigation to the Congress and to the American 
people in a thorough and dignified manner in keeping with the 
memory of this great President.
    Consequently, in 1992 I introduced, and the House and 
Senate passed, Public Law 102-526, a bill entitled, ``The 
President John F. Kennedy Assassination Records Collection Act 
of 1992.'' That law created the Assassination Records Review 
Board, which mandated and authorized that Board to identify, 
secure, and make available all records related to the 
assassination of President Kennedy.
    It was our intention, Mr. Chairman, that everything that 
could be released from every agency, every court record, 
anywhere they existed, that those records be released to the 
American people. Under the law, the Board had until October 1, 
1996 to fulfill its mandate, plus an additional year at the 
Board's discretion. We were very fortunate to have a very 
distinguished panel. This panel was appointed by President 
Clinton 18 months after the law was enacted here by the 
Congress--a considerable delay in the appointment of this 
panel.
    But we were very fortunate to have persons such as Chairman 
Tunheim, Dr. Henry Graff, Dr. Kermit Hall, Dr. William Joyce, 
Dr. Anna Nelson, and outstanding Executive Director David 
Marwell. Under this panel, they have now released more than 
10,000 previously secret government documents. They have 
released a report which I would urge all the members of the 
committee to read if they have an opportunity, because I think 
you will see the extensive amount of work in which they have 
been involved.
    They now need 1 additional final year in order to complete 
their work. Their work in this period of time will be primarily 
to secure the release of documents from the CIA and the FBI. 
Those are the two main agencies left from which they still have 
a considerable number of documents to be released.
    Mr. Chairman, in closing, I think that it's important that 
we complete this work and in an orderly manner with full and 
complete disclosure to the American public so that they will 
feel that they know everything that their government knows 
about the assassination of their President. And I would urge 
the support and passage of this legislation sponsored by 
Chairman Burton on which I am one of the original cosponsors. 
I'd be pleased to answer any questions.
    [The prepared statement of Hon. Louis Stokes follows:]
    [GRAPHIC] [TIFF OMITTED]
    
        
    Mr. Hastert. Thank you, Mr. Stokes. I really appreciate the 
work that you have done here. I have just two brief questions 
here. Actually three. You believe that the Review Board is up 
and running smoothly now?
    Mr. Stokes. Absolutely. In spite of the delay of 18 months, 
they have done just a yeoman's amount of work. It's just been 
almost incomparable to realize how much they have done. And to 
their credit, they feel that if given just this one additional 
year, that they will complete the work.
    Mr. Hastert. And do you believe that this process is 
consistent with the goals of your original legislation in 1992?
    Mr. Stokes. Yes, I do, Mr. Chairman.
    Mr. Hastert. And then you are confident, as you said 
before, that the Review Board can finish its task by September 
30, 1998?
    Mr. Stokes. I'm just very confident that in projecting the 
fact that they can finish this work in 1 year. And when they 
say, themselves, as they will say to you when they appear, this 
will be 1 final year.
    Mr. Hastert. Thank you very much. And thank you for your 
testimony.
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Barrett. Thank you, Mr. Chairman. I don't have a lot of 
questions, either. I just want to compliment you, Congressman 
Stokes, on the fine job that you have done.
    Mr. Stokes. Thank you.
    Mr. Barrett. Just one question. Do you think that in the 
unfortunate and hopefully unlikely scenario that there are 
future assassinations that this was a good way to approach this 
problem--the panel that you served? Do you think that you have 
accomplished what you intended to accomplish?
    Mr. Hastert. Mr. Barrett, at the time that we undertook 
this panel and Congress passed the act to create this panel, 85 
percent of the American people believed that someone other than 
Lee Harvey Oswald had participated in the assassination of 
President Kennedy. A national poll had told us that. There were 
boundless rumors and myths. People were writing numerous books 
and things of that sort. And as a consequence of it, I think 
that putting this panel together and permitting this type of 
investigation was very helpful. I think it allayed many of the 
rumors and myths that grew up and abounded around the 
assassination of our President.
    However, I don't think that they've put to bed everything. 
We uncovered many things. For instance, we pointed out many 
things that the Warren Commission had not done properly. And we 
were able to destroy many of the myths, such as the umbrella 
man theory and things of that sort. But we couldn't put 
everything to bed. We had begun that investigation 15 years 
after the assassination of the President.
    I think if had we been given this type of investigation 
immediately after it had occurred, it would have been a 
different result. But many of the witnesses had died, evidence 
had disappeared. As you can see now, there were materials which 
we were not able to get even within that 2-year period before 
we went out of existence. And so, as a consequence of it, I 
think we did an outstanding job. No one has ever been able to 
refute any of the work that we did. No one has been able, thus 
far, to say that anything was ever covered up from the American 
people.
    And so, to that degree, I think that it performed a good 
service for the American people.
    Mr. Barrett. OK. Thank you very much.
    Mr. Hastert. The gentleman from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Chairman, I 
want to thank you for having this hearing today and for also 
expediting the markup on 1553, and give praise to the 
cosponsors, our chairman, Mr. Burton, Mr. Waxman, and also to 
Congressman Stokes. The editorial comment I would make is I'm 
always amazed at each succeeding day that I serve in Congress 
of the rich history that a number of our colleagues have. And 
to now have our fine colleague from Ohio, Congressman Stokes 
from Cleveland, here, and talk about his previous work in the 
House Select Committee on Assassinations.
    Although many members in the House remember his service, I 
would venture to say that there are a number of people back 
home that don't know all of the things that you've done during 
your many years of service to this Congress and this country. 
Just as an example, the other day I found out--and I don't know 
if you're a lawyer or not, Mr. Chairman--but I found out that 
Congressman Stokes--well, you're lucky you're not a lawyer--but 
I am. And I'm proud to be a lawyer. And I found out that 
Congressman Stokes was responsible for a ruling called Terry v. 
Ohio. And you might have heard of a Terry frisk and search. And 
I didn't know that until the other day, that Congressman Stokes 
had a hand in that. So, again, we find Congressman Stokes 
showing up again sharing his expertise with the country.
    Louis, the one question that I would have deals with, in 
both your written testimony and then also your observations to 
Congressman Barrett's question you talked about the JFK movie 
and all of the rumors and innuendos and the public polls. And 
you still run into people, as I'm sure I still run into people 
that aren't convinced that Lee Harvey Oswald acted alone on 
that November day in Dallas. And part of it has to do, I think, 
with, after your Commission met, and now the legislation in 
1992 and a little delay in getting everybody in place in the 
Review Board, do you think it was necessary--after you've 
reviewed the documents in this case--that we waited, as a 
government, 34 years to make these documents available? Was 
there something impinging upon the national security that you 
found or discovered that made it necessary for the government 
to wait 34 full years before releasing this information and 
hopefully dispelling some of those rumors?
    Mr. Stokes. No. Thank you very much, Mr. Latourette, 
firstly for your nice remarks. But it's a good question, 
because not many people realize that this was not--when we 
sealed these records for the period 30 to 50 years, this was 
not done because of anything relative to this particular 
investigation. That was a House Rule in existence at that time 
that applied to any committee that when it completed its work 
and filed its final report, if they had documents which had not 
been released publicly, under that House Rule, they had to be 
sealed for 30 to 50 years.
    The same applied to the other part of that investigation 
which we conducted, which was to investigate the assassination 
of Dr. Martin Luther King, Jr., which was a companion part of 
our investigation. So that applied to that one also. But as a 
result of it, in compliance with the House Rule, it just sort 
of sat there until things were stirred up by that JFK movie, 
and it sort of brought things to a head.
    Mr. LaTourette. OK. The principles behind your 1992 
legislation--the Assassinations Record Collection Act--
obviously now we collect records differently than we did 
before. A lot of them are electronically stored. Do you think 
that we can use that act as a vehicle should another tragedy--
God forbid we should ever have such another tragedy in this 
country--but should another tragedy such as this occur, and can 
we use the lessons learned in the model of this Review Board to 
prevent the significant time lag between the date of event and 
the eventual release of documents for public review?
    Mr. Stokes. I would hope, Mr. LaTourette, that we have 
learned some lessons. First, here in the Congress we no longer 
have such a rule in effect. And that will help us, I think, 
tremendously. But also, I think by the agencies now working 
with a review panel of this sort, and the realizing that many 
of the type of documents which they will cite to you in their 
testimony--for instance, there is a very interesting document 
that they will talk about where the whole page, with the 
exception of just the date and the name of a country, 
everything was redacted. And under their work, that whole page 
has been released and everyone can read that.
    What you do by that is that you're able to allay all the 
suspicion as to what really has been redacted and people can 
really see. And then you can't have the kind of rumors and 
myths that grow up around it. And I think and hope that, in the 
event of such an occurrence in the future--which all of us hope 
will never occur--that our agencies will realize that this has 
been a good example of how we can allay some of the fears and 
suspicions that the American people have around the manner in 
which we conduct this type of thing.
    Mr. LaTourette. Thank you very much, Congressman Stokes, 
for your expertise.
    Mr. Stokes. Thank you.
    Mr. LaTourette. And thank you, Mr. Chairman, for yielding.
    Mr. Hastert. Thank you, and at this time recognize the 
gentleman from Texas.
    Mr. Turner. Thank you, Mr. Chairman. All I would add is to 
also compliment you, Mr. Stokes, for your many years of work on 
this effort. I, too, stand somewhat in awe of the number of 
years of service and your contributions to this body.
    Mr. Stokes. Thank you.
    Mr. Turner. And I know the Congress and the American people 
are grateful for the years of service you have provided not 
only on this issue, but on many other issues to which you've 
contributed. And I also want to thank those who served on this 
panel, because I'm sure that it's a time-consuming endeavor to 
carry out this task. Thank you, Mr. Chairman.
    Mr. Stokes. Thank you, Mr. Turner.
    Mr. Hastert. Thank you, Mr. Stokes.
    Mr. Stokes. Thank you.
    Mr. Hastert. Will the second panel come forward, please. 
Our distinguished second panel includes four witnesses: Mr. 
John Tunheim, chair of the Assassination Records Review Board, 
Mr. Steven Tilley, Chief of the John F. Kennedy Assassination 
Records Collection at the National Archives; we also have Mr. 
Max Holland, author and contributing editor of the Wilson 
Quarterly, and Mr. Bruce Hitchcock, a historian and teacher at 
Noblesville High School in Indiana, our distinguished 
chairman's home State. And I also would say that at this time 
Mr. Burton wanted to be here to make a few comments. He is not 
here yet. We may entertain that at any time. So, if you 
gentlemen would please stand.
    [Witnesses sworn.]
    Mr. Hastert. Thank you. Let the record show that the 
witnesses answered in the affirmative. And if we'd start with 
you, Mr. Tunheim.

STATEMENTS OF JOHN TUNHEIM, CHAIR, ASSASSINATION RECORDS REVIEW 
  BOARD; STEVEN TILLEY, CHIEF, JOHN F. KENNEDY ASSASSINATION 
  RECORDS COLLECTION, NATIONAL ARCHIVES; MAX HOLLAND, AUTHOR, 
  CONTRIBUTING EDITOR, WILSON QUARTERLY; AND BRUCE HITCHCOCK, 
           TEACHER, NOBLESVILLE HIGH SCHOOL, INDIANA

    Mr. Tunheim. Thank you, Mr. Chairman. I, too, would like to 
submit my written testimony for the record and just give a 
brief summary to the members of the subcommittee today. I'd 
like to thank the subcommittee for this opportunity to testify 
today in favor of House bill 1553. And I'd also like to note 
our thanks to Congressman Stokes for his leadership on this 
issue and his guidance in the important effort to release the 
records relating to the tragic assassination of President 
Kennedy.
    The Review Board is confident that the additional time 
requested and provided by Congressman Burton's bill will allow 
us to complete our work and submit a truly complete final 
report to the Congress, to the President, and to the American 
public. I'd like to thank Chairman Burton for introducing the 
bill and Congressmen Waxman and Stokes for cosponsoring the 
bill that is before this subcommittee today. And I also 
appreciate, Mr. Chairman, your role in chairing this hearing 
today and assisting in this effort.
    One of the other members of the Review Board is present 
with us today. I'd like to introduce her. Dr. Anna Nelson, who 
is the distinguished adjunct historian in residence at the 
American University and is seated in the row directly behind 
me. Dr. David Marwell, the executive director of the Review 
Board, is also here, as are a number of staff members who are 
very professional and very dedicated and have done their work 
for us very well.
    The Review Board, Mr. Chairman, began releasing records in 
July 1995 pursuant to the act passed by Congress. And thus far, 
the Board has acted specifically to transfer more than 14,000 
documents to the JFK Collection at the National Archives. That 
collection, as Mr. Tilley will tell the subcommittee shortly, 
now contains more than 3.7 million pages worth of material.
    I'd like to show one brief and rather dramatic example of 
the work that the Review Board is doing. Congressman Stokes 
mentioned this issue in his testimony. This involves one 
particular record. This is the before version, the record that 
was available to the public up until several years ago. You 
probably cannot see it from here, but it was a document that 
was sent from the FBI's representative in Paris to Director 
Hoover on October 12, 1960. That is indicated at the top of the 
memorandum. The subject, as indicated, is Lee Harvey Oswald 
internal security. And then it says, ``Re: Paris letter, 9/27/
60.'' And the remainder of the entire document is blacked out.
    Not surprisingly, a document like this dated 3 years prior 
to the assassination of President Kennedy, a document sent to 
J. Edgar Hoover, attracted a great deal of interest among 
researchers who saw it, because everything was blacked out 
underneath. The speculation that individuals had about this was 
great. While the Board aggressively pursued the release of this 
information, initially ordering its release, the FBI appealed 
that decision to the President.
    Subsequently, we worked out with them, including an 
aggressive effort to contact Swiss authorities, who were the 
subject of this particular document. I met personally with the 
Swiss Ambassador to the United States to ask for his assistance 
in obtaining Swiss approval to release it. And here is the 
record that is now released to the American public at the 
National Archives. All of the material is released.
    And what it indicates was the FBI was interested in whether 
Oswald was indeed attending a college in Switzerland during 
that period of time. And the document tells about the 
investigation that Swiss authorities did to determine whether 
Oswald was indeed enrolled. He was someone who the FBI was 
following because of his interest in defecting to the Soviet 
Union.
    That's a good example of the type of work that the Review 
Board is doing, pursuing individual releases of information 
that has long been redacted from the public. The Board has 
worked closely with Federal agencies. The vast majority of the 
records are at the CIA and the FBI. We have completed the 
review of the core collections in both of those agencies. And 
significant numbers of materials have been released.
    The Board has also been aggressive in identifying and 
acquiring significant assassination related records that have 
been in the hands of private citizens and local governments. 
Just a couple of examples: the papers of J. Lee Rankin, who was 
the chief counsel to the Warren Commission, have now been 
released through the efforts of the Review Board. Virtually all 
of the records of the prosecution in New Orleans of Clay Shaw 
were also released.
    And I'm announcing for the first time today that the Review 
Board has just acquired the original personal papers of Clay 
Shaw. He was the individual prosecuted in New Orleans in 1969--
the only individual prosecuted for the assassination of 
President Kennedy. That will add another dimension to the 
story.
    This is an example of his diary, which the Board has just 
obtained, and will be released as soon as we can process the 
materials. It's very interesting. It's his diary from the day 
that he was arrested on March 1, 1967, and his feelings about 
Oswald on that particular day.
    Despite the best estimate, Mr. Chairman, that this job 
could be done in 3 years, we cannot finish our work by the end 
of this fiscal year. We're confident that in the additional 
year we will be able to get through the records, which will 
largely involve the sequestered collections at the CIA and at 
the FBI, records sequestered by the House Select Committee on 
Assassinations.
    I'd be happy to answer any questions, Mr. Chairman, that 
you and the Members have.
    [The prepared statement of Mr. Tunheim follows:]

    [GRAPHIC] [TIFF OMITTED]

    
    Mr. Hastert. Thank you. We'll hold all the questions until 
the end of the testimony.
    Mr. Tunheim. Very well.
    Mr. Hastert. Mr. Tilley.
    Mr. Tilley. Mr. Chairman, I am Steven Tilley, and I am 
Chief of the Access and Freedom of Information staff at the 
National Archives and Records Administration. And I wish to 
thank you for the opportunity to testify today for the National 
Archives in support of H.R. 1553. I am appearing today in my 
capacity as NARA's chief of the President John F. Kennedy 
Assassination Records Collection. In that role, I am charged 
with implementing NARA's responsibilities under the act. And I 
serve as NARA's liaison to the Assassination Records Review 
Board. It's my understanding that my written statement will be 
made part of the record. Therefore, I'll be brief in my 
remarks.
    Mr. Chairman, this month marks the 20th anniversary of the 
closing of the office of the Watergate Special Prosecution 
Force. I oversaw the closing of that office and supervised the 
transfer of those records to the National Archives. Most of my 
career at the National Archives since then has been working 
with sensitive records. In 1993 I became chief of the JFK 
Collection. And I've served in that capacity ever since.
    When the Review Board members were confirmed by the Senate 
in April 1994, my staff and I began to work with the Board and 
later with the Board's staff to provide information on the 
records of the JFK Collection, the development and use of 
NARA's data base, our contacts and discussions with other 
agencies involved in searches for assassination records, and 
the existence of assassination records in the custody of 
private repositories or individuals.
    The Review Board and NARA have maintained an excellent 
working relationship through the 3 years of the Board's 
existence. And I'd like to think that this close relationship 
has in some way contributed to the success of the Review Board. 
NARA enthusiastically supports passage of H.R. 1553 to extend 
the Review Board's authorization. The Board needs the time 
designated in this bill to complete its important work in 
making available as complete of a historical record as possible 
concerning the assassination of President Kennedy.
    I would like to briefly offer for your consideration some 
statistics and facts to demonstrate the success of the Board. 
The JFK Assassination Records Collection has grown to more than 
1,600 cubic feet of records, or approximately 3.75 million 
pages from more than 30 different government offices. These 
numbers are a testament to the work of the Board in obtaining 
the cooperation of the entire Federal Government as well as 
private donors in this important task.
    For the information of the committee, Mr. Chairman, I have 
attached to my testimony a copy of the register of the 
collection, which lists the major groups of Federal records and 
private papers along with a supplemental listing of FBI 
records. Not only has the collection increased dramatically in 
size, the significance of the records in the collection cannot 
be underestimated. In addition to the records of numerous 
executive branch agencies and offices, the records of relevant 
congressional committees, related court cases and records 
donated by private entities are also available in the 
collection.
    This rich documentation is searchable electronically, 
giving researchers the ability to seek out documents concerning 
a topic, person or event, or even individual documents not only 
at NARA's College Park facility but from their own personal 
computer through the Internet. Finally, Mr. Chairman, public 
demand for these records is the ultimate evidence of the value 
of this collection. Reference requests have risen in number 
every year since the collection opened with new records in 
1993. This year we have already received over 600 written 
inquiries, an increase of over 30 percent from this period last 
year.
    The number of inquiries on our computer Web site has also 
steadily increased since March 1996 when the assassination 
records data base was made available through the Internet. It 
has been accessed over 100,000 times by the public.
    Due to the exceptional work of the Assassination Records 
Review Board, great progress has been made on making available 
as complete a record as possible in the history of the 
assassination of John F. Kennedy. Without the focus, integrity 
and expertise of the Review Board, the collection would not 
have the size, quality or public demand witnessed today.
    However, there is still much to do. NARA supports passage 
of H.R. 1553 so this important work can be completed.
    That concludes my statement, Mr. Chairman. I'd be glad to 
answer any questions.
    [The prepared statement of Mr. Tilley follows:]
    [GRAPHIC] [TIFF OMITTED]

    
    Mr. Hastert. Thank the gentleman. Mr. Holland.
    Mr. Holland. Thank you, Mr. Chairman. I'd like to make a 
brief statement summarizing my testimony. Nearly 75 years after 
President Lincoln's assassination, a chemist turned author 
named Otto Eisenschiml provoked a national furor with his 1937 
book, ``Why Was Lincoln Murdered?'' Eisenschiml claimed one of 
the most important events in American history was still a 
mystery. And Eisenschiml claimed to have uncovered the truth: 
President Lincoln was a victim of a conspiracy organized by his 
Secretary of War, Edwin Stanton, who was allegedly opposed to 
the President's program for a charitable post-war 
reconstruction of the South.
    When pressed, Otto Eisenschiml openly admitted that he had 
no evidence to support his case. At the same time, though, it 
was precisely the documentary record that enabled critics to 
prove that Eisenschiml's book was just another in a long line 
of lunatic theories about the first assassination of an 
American President.
    Here lies, I submit, the long-term importance of the work 
being carried out by the AARB. The meaning of the raw data 
being unearthed by the Review Board will probably not be 
appreciated any time soon by the generations sentient when 
President Kennedy was murdered in Dallas. But if these 
generations cannot come to terms with history as it happened in 
their lifetimes, then at the very least they have an obligation 
to hand over, insofar as possible, a complete and thorough 
documentary record. Citizens will need that record to rebut the 
Otto Eisenschimls of the next century--not that there is any 
dearth of them now.
    I strongly support, without qualification, extension of the 
Review Board for another year and full funding of its 
operations. Bringing its work to an abrupt end would not only 
diminish the investment of time and resources already made; in 
all likelihood, it would throw the whole initiative into chaos. 
Not least of all, gutting the effort now would surely create an 
ineradicable suspicion about the Federal Government's 
intentions in the first place.
    I'd like to spend the balance of my time describing the 
three areas where I think the Review Board has made its 
greatest contributions. The first has to do with the Warren 
Commission. The Review Board's labors have resulted in many new 
documents that I believe will eventually remove the stigma that 
has been attached to the Commission, which is probably the most 
unfairly reviled and ridiculed entity ever created by the 
Federal Government.
    These records paint a sobering portrait of our Federal 
Government during a very traumatic time. It's not the idealized 
versions depicted in civics textbooks nor the demonized version 
featured on talk radio. It's the real Federal Government: 
imperfect, plodding, driven by ambition, distrust, rivalries, 
compartmentalized by secrecy, working at cross purposes or in 
ignorance, simultaneously guided by the most banal bureaucratic 
instincts and the most elevated national concerns.
    Somehow, through all of that, it does struggle and manage 
to do the right thing. Besides the Warren Commission, I think 
the work of the Review Board has made a very substantial 
contribution toward understanding the operations of the 
intelligence community. The assassination necessarily caused 
what could only be termed a mobilization of the U.S. 
intelligence community's far-flung resources. The government 
had to determine that weekend who was responsible and whether 
the assassin or assassins had any coconspirators either foreign 
or domestic.
    Consequently, the records being released now constitute a 
gold mine of information about domestic and foreign 
intelligence operations at the midpoint of the cold war. These 
records not only shed new light on what the government knew 34 
years ago, the release is an object lesson in why they were 
kept secret for all those years. They do not contradict the 
Federal Government's official conclusion as stated in the 
Warren Report. Rather, the documents were kept secret because 
they disclosed or tended to disclose ongoing intelligence 
sources and methods.
    With the release of these documents, the intelligence 
community's record in the wake of the assassination can finally 
be assessed with some fairness and thoroughness. The fact is 
that the information provided by the FBI, CIA and other 
agencies was instrumental in preventing the U.S. Government 
from overreacting when the circumstantial public evidence was 
highly suggestive of a link between Lee Harvey Oswald and a 
foreign power.
    The last area in which the Review Board has made perhaps 
its greatest contribution has to do with the whole issue of 
secrecy and disclosure. The balance between secrecy and 
disclosure has always been in favor of secrecy, especially 
since World War II, controlled by laws highly deferential to 
the equities of the interested government agencies. The five 
citizens who serve on the Review Board decided that if their 
mandate was to have any meaning, it was imperative to pierce 
this veil.
    They had to get at categories that had been classified 
heretofore, including information derived from intelligence 
sources and methods. While some historians have been critical 
of the resources devoted to this particular effort, I like to 
believe that a breakthrough had to be achieved somewhere. And, 
in fact, the records pertaining to President Kennedy's 
assassination make an excellent demonstration project of what 
can now be released. The lines drawn by the Review Board should 
prove helpful as the government undertakes to declassify the 
vast body of records generated during the cold war.
    Finally, I'd like to say that the entire history of the 
Federal Government's efforts in the wake of the assassination, 
including the experience of the Review Board, serves as a 
cautionary tale. Perhaps it will enable the government to 
strike a better balance between secrecy and disclosure in the 
future. For there exists no better example of the heavy wages 
of doubt, suspicion, and public cynicism exacted by secrecy 
than the Kennedy assassination experience.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Holland follows:]

    [GRAPHIC] [TIFF OMITTED]

    
    Mr. Hastert. I thank the gentleman. And now, Mr. Hitchcock, 
I'd like to welcome you especially. The gentleman from Ohio 
asked me a little while ago if I was an attorney. Indeed, I was 
not an attorney. I happened to be a history teacher for 16 
years before I ever got into politics. So it's certainly a 
noble trade. And I'm happy that you are here. I know that the 
chairman wanted to introduce you personally, but he couldn't 
make it this afternoon. You contributed students, I understand, 
to clerk for this Commission and have been involved in it to a 
very high degree. So we welcome you and will listen to your 
testimony.
    Mr. Hitchcock. Thank you, Mr. Chairman. And I, too, would 
ask that my written statement be entered into the record. And I 
will briefly summarize.
    Mr. Hastert. Without objection, all written statements will 
be entered into the record.
    Mr. Hitchcock. Thank you. My name is Bruce Hitchcock, and I 
am a teacher at Noblesville High School, located in 
Noblesville, IN, which is a community approximately 20 miles 
north of Indianapolis. I am currently completing my 28th year 
in secondary education. My teaching assignment has primarily 
been in the areas of U.S. history, American government, and 
international relations. And I want to express my appreciation 
to the committee for affording me the honor and privilege of 
being here today and permitting me to make some brief remarks 
about which I have very strong convictions, not only as a 
citizen but as an educator.
    In the spring of 1994 I assigned my honors U.S. history 
class a project studying the assassination of President John F. 
Kennedy. This project culminated in the students placing the 
Warren Commission Report on trial. Half of the class 
represented the prosecution and half of the class defended the 
Warren Commission Report. The class became quite interested in 
and many would say obsessed with this subject.
    The project resulted in a trial which became quite intense 
and divisive, so much so that the class had to have a party at 
the end of the semester to rekindle friendships. They became so 
fascinated with the subject of the assassination that they 
requested an opportunity to travel to Washington, DC during the 
summer following their graduation to do additional research.
    From that modest class assignment developed an internship 
opportunity with the JFK Assassination Records Review Board. To 
date, four student groups from Noblesville High School have 
interned with the Review Board, with the fifth scheduled for 
the week of June 16th of this year. When this group completes 
its work, a total of 56 of our students will have participated 
in this unique and truly educational opportunity. I might add 
that except for the first group, succeeding groups have 
studied, researched, and prepared for their internship on their 
own time, outside normal class meetings.
    The most recent group to participate did so over spring 
break. The fact that students wanted to spend their vacation 
working with government records reflects the interest that the 
JFK assassination has for students. In my 28 years of teaching 
I have never had a topic create as much interest as the 
assassination of President Kennedy. It is a mystery, and it 
provides an excellent research opportunity as well as a chance 
for students to be actively involved in learning.
    Since November 22, 1963, there have been many who have 
believed and still believe the government did conceal, 
continues to conceal, and will continue to conceal the truth. 
If the Review Board is permitted time to complete its work, it 
will assist in defusing the last two charges. We cannot prevent 
the speculation that someone did conceal the truth. But the 
argument that a cover-up continues and will continue can at 
least be defused or discouraged.
    What has been lost cannot be replaced. However, what still 
exists can be made public. We should have access, and our 
students should have access to the information and documents 
still in existence. This is an opportunity for the U.S. 
Government to provide a credible response to public interest. 
The Review Board established by the Congress is actually a 
group of citizens telling the government what to do and what to 
release.
    An opportunity exists in this era of skepticism to restore 
some credibility and trust in the government. In his recent 
book, ``The Approaching Fury,'' author Stephen B. Oates quotes 
John Ferling as saying, ``Events by themselves are unimportant. 
It is the perception of events that is crucial.''
    Perhaps in 1997 the most important aspect concerning the 
assassination of President Kennedy is the perception shared by 
many of a conspiracy involving individuals and agencies of the 
U.S. Government. Do we not owe our young people the opportunity 
to form the most accurate perception possible? Do we not owe 
them the chance to see as much of the truth intact as can be 
assembled? It seems to me that we owe this generation and all 
succeeding generations the opportunity to question, to study 
and to form opinions on the basis of information they can view 
independently without solely relying on the opinions of others.
    Oftentimes while I'm in the classroom, I observe students 
who have opinions but little to substantiate them. Congress has 
a chance before it in some small way or maybe in some large way 
to at least provide them with some more information so that 
they may have their turn in determining what the JFK 
assassination means. We have been affected by this event. For 
34 years we have been affected. The 56 students from 
Noblesville High School have, as have countless others, been 
affected by the events of November 22, 1963.
    The study of this event has the public's interest. It is an 
event to which the public and students can relate. It touches 
people. As an aside, last week an article was published in the 
Indianapolis Star--I have a copy with me today--regarding our 
school's ongoing JFK assassination project. Within a day of its 
publication I had received phone calls from a gentleman 
offering 500 pages of documents for our use and from a former 
teacher calling me with information regarding some scholarship 
opportunities.
    I also received a call from ABC News Nightline, and 
yesterday, before leaving Noblesville High School, received a 
call from Atlanta, GA offering information. The subject of the 
call from Nightline was seeking information as to what 
Noblesville High School students were doing with regard to the 
study of the assassination. Together I think these calls 
reflect continued local and national interest in continuing to 
probe into what happened in Dallas.
    Congress has the opportunity to lay the facts before the 
American public and permit a more reasoned, rational and fact-
based account and discussion of the assassination. I would hope 
that the committee would take into consideration the fact that 
the Review Board had a 1-year delay before truly becoming 
operational, that it is making a one time request for an 
extension, that the Review Board has been on task and on 
budget, that the Review Board has conducted its business in a 
professional and non-partisan manner, and in 1992, when the act 
was passed by this Congress and signed by President Bush, the 
enormity of the task was not and could not be fully 
appreciated.
    An opportunity exists to complete a task which I believe is 
overwhelmingly supported by the American public. And it is 
important that this mission and mandate authorized by Congress 
be completed.
    I would like to end with just a couple of quotes, one from 
former Senator Bob Dole, who said in a different context, 
``This is not about only who we are, it is about have we made a 
difference.'' This is a chance to make a difference. And as 
former President Reagan often said, ``If not us, who, and if 
not now, when?''
    After 34 years, it is time to let the public know the facts 
that remain. To do less would be a tragedy and a travesty. As 
an educator I believe that our most important task is to 
provide our young people the complete story of who we are and 
why we are who we are. We have the opportunity to work toward 
the accomplishment of that goal. It is an opportunity I believe 
we cannot afford to miss.
    In his last speech in Fort Worth on November 22, 1963 
President Kennedy said, ``We would like to live as we once 
lived, but history will not permit it.'' History can only be 
served by permitting the public to see the evidence.
    Mr. Chairman, as a further aside, if I might just have a 
few seconds.
    Reflective of our students' interest in this event, I have 
my honors government classes perform the project of a model 
Congress. And one of the students this year--they could write a 
bill on whatever subject they wished--and one student who 
worked with the Review Board last year introduced House 
Concurrent Resolution 1 in support of the Review Board, and 
concludes, after all the whereases, ``The Congress of the 
United States firmly supports the Assassination Records Review 
Board in all endeavors leading to the collection, review and 
release of the documents regarding the assassination of 
President Kennedy, and supports the extension of the life of 
the AARB for an additional fiscal year.''
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hitchcock follows:]

    [GRAPHIC] [TIFF OMITTED]

    
    Mr. Hastert. I thank the gentleman. I thank the panel. Now 
I recognize the gentleman from Wisconsin, Mr. Barrett.
    Mr. Barrett. Mr. Hitchcock, can you give us the name of 
that student so we can make him or her an honorary cosponsor? 
Might as well get the name into the record.
    Mr. Hitchcock. Abigail Meyer.
    Mr. Barrett. OK. Judge Tunheim, you mentioned that you were 
releasing some materials from Clay Shaw's diary and perhaps 
other things. Is there any information here that you find 
particularly interesting?
    Mr. Tunheim. Well, Mr. Barrett, I have not had a chance to 
go through it. We just got these materials in the last week 
through some aggressive efforts of our staff. The page that I 
cited to you was interesting in that he made the notation in 
there, and a portion of it in his own handwriting, that it was 
perhaps unfortunate that he had never met Oswald because he 
might possibly have been a tiny footnote in history: an ironic 
statement given the role that he played in the trial.
    We have not had a chance to analyze it thoroughly yet. It 
does contain his reactions to events as they were going on 
around him during the course of the prosecution and certainly 
supports his view that he was not involved whatsoever in the 
assassination, which ultimately was the view of the jury that 
acquitted him.
    Mr. Barrett. For my benefit, as a person that has not been 
immersed in this issue at all, you just mentioned that it took 
some aggressive work from your staff to get this released. Can 
you tell me what that entailed, where it was, why it was so 
difficult to get this information?
    Mr. Tunheim. Certainly. This is an investigation into where 
records are. And the bulk of our work has been with Federal 
agencies that hold assassination records. But we've also, at 
the direction of Congress and the bill that was passed, 
entertained a search for records wherever they might be. 
Records that are in private hands are not records that we can 
subpoena and take from people. So we have to find where they 
are.
    Staff members go out and talk to people, encourage them to 
donate those records to the American public, to the National 
Archives. And that was done in this case. We received a tip 
that an individual had records that were left over from Mr. 
Shaw, and a staff member went, talked with the person, spent 
some time with the person and encouraged them to share those 
records with the American public. And that's how it was 
developed.
    Mr. Barrett. How do you determine which assassination 
records you can disclose now and which ones have to wait?
    Mr. Tunheim. Well, there's a standard that's set up by the 
act. There's, first of all, a presumption that all records 
should be public. That presumption has governed what the Board 
has done throughout the process. But then there's a standard 
where the Board has to weigh the public interest in a 
particular record or information with the potential harm that 
might be caused by release of the material. The standards that 
we look at are: are there national security interests such as 
disclosure of an intelligence agent whose name hasn't been 
disclosed and whether that person perhaps may be in some danger 
if that name is released publicly, does it disclose a method of 
protecting the President that is not generally known today, so 
therefore, it might be a threat to the President, are there 
personal privacy considerations that are involved?
    I will tell you that when all is said and done, a very, 
very tiny percentage of information gets redacted under the 
standards that we are applying. And the process of going 
through the records has led the Board to arrive at a number of 
policy decisions which the agencies by and large are now 
following in their own review of records. And, therefore, 
decisions that we had to make 2 years ago we don't have to make 
because the agency is following the advice that the Board made 
on earlier records.
    Mr. Barrett. As long as there are some records that are not 
being released, do you think that we will inevitably face 
criticism from some people in the American public that there is 
still some sort of cover-up? I make reference to Mr. Holland's 
comments about a book being written 75 years after President 
Lincoln's assassination. Will the time ever come, do you think, 
when all records will be released?
    Mr. Tunheim. Well, I think it will, Mr. Barrett. The Board 
is releasing every record. The question is whether certain 
information on these records gets redacted or not. For every 
redaction, we are attaching a specific release date. Some of 
the dates are 5 years into the future. The law that was passed 
which established the Review Board provided that all records 
that are redacted, all information redacted, will be released 
in 2017, unless whoever is President at that time makes a 
specific determination that the record cannot be released 
because of some continuing national security concern.
    So we expect that virtually all of the information by 2017 
will be released. But a very high percentage--in the 99.999 
range--is being released right now.
    Mr. Barrett. Mr. Tilley, in your written statement you 
indicate that the collections currently consist of 3.75 million 
pages. What is your estimate of how many more records need to 
be reviewed?
    Mr. Tilley. Well, it's hard to say because there is still a 
good deal of material that is being reviewed by agencies at 
this time. We have located, at the National Archives, records 
that are still under review, such as the Secretary of Army's 
records dealing with Operation Mongoose, the campaign to 
destabilize the Cuban Government in the period after the Bay of 
Pigs.
    Other records have been located, other agencies'. I 
received a call from the Customs Bureau today, and they will be 
turning over their assassination records to me, hopefully this 
afternoon. After this hearing is over I'll be picking up the 
records they've located. So it's tough to say how much is still 
out there. But I think there's still going to be another--a 
considerable amount of material probably will be added to the 
collection before this process is finished.
    Mr. Barrett. Millions of pages or----
    Mr. Tilley. Oh, no. I would say probably--if we add another 
half a million pages, that might be the extent of it. But 
what's interesting and fascinating about this process is we 
continue to turn up records where we did not know there were 
records before. And as agencies are aware of this effort, 
they've come to the Board. And the Board is responsible for a 
lot of this aggressive work with the Federal agencies, but--no, 
I don't see us ever doubling the collection again. But I think 
we will add a significant amount of material in the weeks and 
years ahead.
    Mr. Barrett. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Hastert. Mr. Tunheim, just a very short question. You 
mentioned the movie that came out--``JFK,'' Mr. Oliver Stone's 
work--in there. Did Mr. Stone ever have any questions of your 
work at all or did he do research?
    Mr. Tunheim. Well, Mr. Stone has been very supportive of 
the work of the Review Board. He testified before the Congress 
when this bill was passed initially, encouraging broad release 
of the records, and he sent a representative to one of our 
public hearings who testified and spoke very favorably about 
the work of the Board. So he's been strongly supportive, and 
we've appreciated that support.
    Mr. Hastert. Why have you waited until this point in the 
process to begin the reviewing of the CIA and the FBI records?
    Mr. Tunheim. Well, we've been reviewing CIA records and FBI 
records from the very beginning, Mr. Chairman. The volume of 
records in those agencies is really significant. We have 
completed the entire review of the core collections of those 
agencies. And those are numerous: between the two agencies, 
it's more than a million pages of records. What we are doing 
right now is delving into what is called the sequestered 
collections within both of these agencies. Within the CIA these 
are records that the House Select Committee on Assassinations 
asked to be sequestered, taken away from their files and kept 
in a secure place for future review.
    The House Select Committee did not have the time to review 
these records carefully. Some of them are highly relevant to 
the assassination, others are not. Within the CIA there are 
about 62 boxes of material and 72 reels of microfilm. In the 
FBI the same kind of sequestered collection is about 280,000 
pages of records. And those records are the focus of the Review 
Board's work over the next year if we get the extension.
    Mr. Hastert. Let me ask the same question I asked the 
previous panel. Do you think that you can finish your work by 
the end of the fiscal year 1998?
    Mr. Tunheim. Mr. Chairman, I am confident that the Board 
can complete its work. The members of the Review Board are 
confident. We will make every effort to ensure that that gets 
done. In fact, we intend to provide to your staff a time line 
that sets out our anticipation of how we will review these 
records over the next year. We have set up a review process 
that we're working on right now that's moving quickly. And 
we're confident that the work can be done. We were set up to be 
a temporary Board. No one on the Board wishes this effort to 
take a long time. We need to get this information to the 
American public.
    Mr. Hastert. Thank you very much. Mr. Hitchcock, I wanted 
to ask you. As bringing students into the real realm of 
research and learning in that respect, how important is it that 
records like this be made available to the public so that folks 
like yourself can have the availability of them for students?
    Mr. Hitchcock. I think, Mr. Chairman, it's extremely 
important for not only teachers of history and historians, but 
also for students and future generations that the--one of the 
things so special about our relationship with the Review Board: 
it has not only been an opportunity for students to travel to 
Washington--they pay their own way, and they do their own 
research on their own time--but it has helped change opinions 
in many cases by students about not only the assassination but 
about government, politics, agencies and people who work for 
the government.
    I cannot overstate the importance it has had for the 43 
thus far and soon to be 56 students from Noblesville High 
School that have had this research opportunity, that have been 
able actually to see, handle original documents, to work with 
documents, to see firsthand the evidence that exists. And to 
have that opportunity is something that no teacher, no 
classroom, no film, no laser disk, nothing in the classroom can 
simulate or stimulate such interest and focus as a trip to 
Washington, DC, the review of documents, the working with 
people that we've had an opportunity to be with at the Review 
Board on a firsthand basis.
    It is just something that cannot be duplicated or, as I 
said, simulated in any classroom anywhere in the country. And 
it's just been a fantastic opportunity and will provide 
students in the future with a place to go to find those 
records, to look at the records, to look at the documents, and 
be at least assured that as much as available and is in 
existence, can now be made available to them as ordinary 
citizens of this country, whether they be students at a 
university, students in high school, or in their just curiosity 
and interest as an American citizen.
    So I don't think it can be overstated. The impact that this 
will have in helping bridge that gap of skepticism--if this is 
the correct way to say it. I just cannot imagine what the many 
conspiracy theorists would think if the Review Board has to 
finish its stay without completing its work.
    Mr. Hastert. Thank you. The gentleman from Ohio.
    Mr. LaTourette. Thank you, Mr. Chairman. And, Mr. Chairman, 
I would begin by indicating that my earlier query about your 
legal training was not meant to be an affront, and I should 
have recognized that your learned demeanor was that of a 
historian.
    Mr. Hastert. Not at all.
    Mr. LaTourette. And, Mr. Holland, I don't have a question, 
but I'm glad you told the story about Otto Eisenschiml. Because 
somewhere in the back of my mind I remember a book or a movie 
called the Lincoln Conspiracy, and I was certain that Secretary 
Stanton had something to do with the demise of our 16th 
President. So I'm glad you brought that up. Mr. Tunheim, I do 
want to ask you a followup question to what we were talking to 
Congressman Stokes about. And I was fascinated by the document 
that you held up. When I was in the prosecution business and we 
had a public records law in Ohio that was new on the books, we 
found that law enforcement agencies always wanted to take a big 
black magic marker and redact everything.
    And it was my view that that led to more conjecture, rumor, 
suspicion than not. And I think that this document that you 
brought forward, knowing that it came from the Swiss Federal 
police, that would give, I think, some cause to believe that 
Mr. Oswald had some Swiss bank account and was squirreling away 
money from foreign nationals as part of a conspiracy. If you 
unredact it--if that's really a word--you find out like so many 
other people that he apparently registered for the Albert 
Schweitzer College for the fall semester of 1960 and didn't 
show up. Nothing sinister or unusual in that at all.
    And the question that I have is, when you were testifying 
you indicated that the FBI originally appealed the decision to 
withdraw the redaction of this particular document. You also 
indicated that the vast majority of documents that you have 
left to review during this renewal period are located at the 
CIA and the FBI in the sequestered section, I assume. Are you 
experiencing any unusual difficulties with either of those 
agencies in terms of cooperation as you attempt to get to a 
public release of what should be appropriately publicly 
released?
    Mr. Tunheim. Well, Mr. LaTourette, the answer to the 
question is no, we're not receiving any degree of difficulty 
with those agencies right now. They are committed to this 
process. They are supportive of the effort to keep the process 
going for one additional year. The CIA has not appealed 
decisions that the Review Board has made. We've got a good 
working relationship with the people within that agency who are 
doing their work. The FBI appealed a significant number of our 
decisions, but now all of those appeals have been withdrawn.
    And we've got a working relationship with the FBI that I 
think has been constructive and professional and is working 
quite well. The FBI initially opposed release of the document 
that I held up and appealed the decision because they had 
contacted in a general way the Swiss Federal police and asked 
whether this record could be released and their answer was no. 
Our followup through the Ambassador is showing what, really, 
this document was all about, and led to a wiser approach to the 
particular issue. And sometimes it takes additional work like 
that to accomplish the release of important material.
    Mr. LaTourette. And the last question I would have is, 
Congressman Stokes expressed the view that perhaps the fine 
work of this Review Board, should another Review Board setting 
be required in the future to review another situation similar 
to this, that you may be breaking down some of the barriers in 
terms of suspicions the intelligence community may have about, 
do we need to stick to the script and have a page that has all 
black magic marker on it. Do you find that the lessons learned 
in this Review Board will be instructive to us as we move 
forward and think of ways of dealing with the release of 
documents in the future?
    Mr. Tunheim. I think that's a very good question. And we 
have found through this effort, being the first independent 
group outside of an agency to have this degree of control over 
the declassification process, that the process at first was 
rough and difficult and fraught with suspicion. That has 
changed. There has been a sea change as these agencies have 
realized that release of this information is not going to harm 
our national security, that perhaps it's time simply to trust 
the American people with access to important information about 
their government.
    And I think everyone has learned important lessons from 
this process. It's a process that while time consuming has 
worked very well for this set of records.
    Mr. LaTourette. And in that regard and in that vein, have 
you--the Review Board--put together sort of an instruction or 
an operating manual to be left behind for future such 
endeavors?
    Mr. Tunheim. Well, we certainly will. Virtually all of our 
work has been computerized so that we have an extensive record 
of exactly how we've approached all these issues. We do intend 
in our final report to make recommendations on how this effort 
can be extended in the future to other areas if the Congress so 
wishes.
    Mr. LaTourette. Thank you for answering my questions. Thank 
you for your fine work. And thank you, Mr. Chairman.
    Mr. Souder [presiding]. Thank you. I had a couple of 
questions. I read your testimony as I was listening to the 
other two. I'm sorry I was late. I wanted to ask Mr. Holland, 
were there credible historians who, at this point, are still 
questioning the assassination and the Warren Commission and the 
information that came out before this Commission existed, 
before these documents came out?
    Mr. Holland. Basically, most historians have stayed away 
from it, because they regard it as a tar baby. So there are 
actually surprisingly few--by historians, if you mean 
professors at universities. Surprisingly few who have written 
about it because they just see it as a morass, and how are they 
going to possibly figure out what happened. And so my answer 
would be credible is in the eye of the beholder. But there are 
actually remarkably few. And that's one of my arguments, is 
that you have to--it is time to insert it back into history.
    It did happen during the cold war, and that exerted a 
tremendous influence over what the government did right after 
the assassination. It was the precipitating element in the 
formation of the Warren Commission, that the cold war was 
ongoing and they worried about--to be frank--they worried about 
congressional committees holding hearings and disclosure of 
sources and methods such as the fact that Oswald had gone to 
Mexico City and been observed by photographic surveillance, and 
how was that going to be handled by a congressional committee.
    So, I do believe it has to be inserted into historical 
context. That's probably been the element that's been missing 
all this time.
    Mr. Souder. So you believe one of the benefits of this 
Commission, it will bring out of pop culture and in more 
mainstream because more documents are there, less questions can 
now be analyzed. And, also, you seem to hint that we'll gain as 
much--it's not necessarily that there's a lot of new 
information on the assassination--but that we're going to learn 
a lot about how our government worked and a lot of the 
interrelationships. And that may be, in fact, more use to the 
historians than any questions they had remaining about the 
assassination.
    Mr. Holland. I think--my own particular view is that 
besides being an investigation of three crimes, the murder of 
President Kennedy, assault on Governor Connally and the murder 
of Officer Tippit, and then the murder of Oswald--so four 
crimes--the Warren Commission is a fantastic lens to view the 
operation of the government circa 1963-1964. Because they had 
an overriding mandate but yet they were going up against 
agencies such as the FBI and CIA with entrenched interests. And 
especially Hoover's FBI was sort of a wonder to behold; you 
dealt with it very gingerly.
    So it's a great--and the FBI had not been second-guessed 
since Hoover became director. This was the first time. And you 
can't underestimate what that meant in terms of the 
difficulties it posed for the Commission. Now, I maintain they 
still came to the right conclusion. But the fact is that they 
had a lot of trouble with the FBI.
    Mr. Souder. One of the questions here is why it took so 
many years to get to this point? In looking at what future 
commissions might do, how much of that do you think can be 
overcome? In other words, how much of this was the Hoover FBI, 
say, and how much of this was institutional that in the first 
10 years you have so many active in the field, ongoing 
operations, in the first 20 years there's still some--can we 
accelerate the process? What have we learned from this as to--
obviously this is one that particularly anybody in the 1960's 
era--was a defining event. So, it's an extraordinary 
assassination. But what have we learned for investigations in 
the future? Do you believe the CIA and the FBI will release 
information sooner and, if so, presumably they'll still be 
redacted, which still could lead to Oliver Stone movies and 
Lincoln conspiracy books and all sorts of things?
    Mr. Tunheim. Well, Mr. Chairman, I think that the fact that 
these records are 30 years old has helped in attaining their 
release. It's not information about the assassination, per se, 
that agencies have objected releasing. It's more who said what 
to who, who is an intelligence agent, and who is an informant 
for the FBI. Those kinds of issues. And there will still be 
institutional reluctance to release any of that information.
    I hope that through this process we can demonstrate to the 
public and to these agencies that this information can be 
released to the public, that the public can be trusted with 
information like this. There will still be a need for secrecy 
to a certain extent, but certainly not with the broad brush 
black pen approach of the past.
    Mr. Souder. We first learned that--I was elected in 1994, 
and our first experience in this committee was with Waco, which 
we had similar questions and still had some information that 
wasn't able to be released. We're certainly having that ongoing 
debate with the administration right now, because it gets far 
beyond the initial investigation. In the course of Travelgate 
we discovered the data bank. And, of course, with the data 
bank, you discover the code. And then you find out that the 
code leads to this. Pretty soon you're off into other 
investigations. That's going to be an ongoing problem. Do you 
believe in the end that this will have silenced most critics?
    Mr. Tunheim. In my view, Mr. Chairman, it will silence 
some. It will perhaps provoke others. We're many years after an 
event that was investigated in a different era. There were many 
mistakes made at the time that cannot be corrected at this 
stage in time. But I think when the Review Board is done with 
its work, one thing we should be able to prove to the American 
people is that the Federal Government is no longer keeping 
secrets from them relative to the Kennedy assassination. I 
think that will be a very significant development. Whether all 
the questions will be resolved or not, that's a question for 
historians in the future who will review these materials and 
make their determinations.
    This is like a gigantic puzzle with a lot of pieces 
missing. We are putting some of those pieces in--small pieces 
and large pieces. But there's a lot of pieces of the puzzle 
that will never be found.
    Mr. Souder. I want to ask one last question. And that is: 
the options of dealing with acquiring the Zapruder film, is 
that going to be a cost in addition to what you're requesting? 
Do you have options of how to pay for that? What's the status 
of that?
    Mr. Tunheim. Well, the Zapruder film, as the chairman is 
aware--the Review Board designated that as an assassination 
record about a month or so ago. We felt that that decision was 
determined by the Congress in the passage of the JFK Records 
Collection Act when it said that all records in the possession 
of the National Archives are assassination records and should 
be included in this collection.
    Recognizing the potential cost of a film like this, we did 
set forth a 16-month period before the taking would take place 
so that the Congress could address this issue and make 
appropriate determinations if the Congress wished to make those 
determinations. The Board did feel that decision had been made 
for it by the Congress in the earlier act and that it is the 
most significant piece of evidence of one of the most 
significant crimes in our Nation's history, so, therefore, the 
original has an intrinsic value and it should belong forever to 
the American public.
    We are hopeful that the Zapruder family will agree 
eventually to donate that film to the American public. We have 
no assurances of that at this point. But we did set the 
timeframe far out into the future so that the Congress can 
review this issue and make its own determinations if it so 
wishes.
    Mr. Souder. Do you have any additional questions? With that 
I thank you all----
    Mr. LaTourette. Mr. Chairman, if I could beg your 
indulgence just to ask one more question, if I may?
    Mr. Souder. Sure. I yield to my friend from Ohio.
    Mr. LaTourette. Mr. Tunheim, my previous question about 
difficulty with the CIA and FBI--sometimes I don't make things 
broad enough. And, I guess, my query would be--it's been 
brought to my attention that perhaps there's been some 
difficulty in obtaining records from the other body. Is there 
any agency within the Federal Government that you're having 
difficulty in terms of cooperation that would impede your 
ability to complete your work in a timely fashion as envisioned 
by this legislation?
    Mr. Tunheim. Mr. LaTourette, I have not seen any evidence 
currently that anyone is deliberately stonewalling us so that 
when we go away they will put the records back into the files. 
We had some significant problems early in the process just in--
really because agencies didn't understand what this was all 
about and didn't understand what the law really provided for. 
So it took some time. It's taken some time, for example, with 
the Secret Service, to get them to the point of realizing their 
obligations under the act.
    They do now, and they've been very cooperative and easy to 
work with. But this has been a learning process for all of the 
agencies. And I feel at the current time there are no 
impediments among any of the agency partners that we're dealing 
with to completing the review of the records on a timely basis.
    Mr. LaTourette. Thank you. I thank the chair for your 
indulgence.
    Mr. Souder. I thank you all for your testimony and I 
appreciate your coming today. For procedural purposes I will 
now close this hearing. The hearing is adjourned.
    [Whereupon, at 1:30 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
